<html>
<title> - [H.A.S.C. No. 111-101]U.S. MILITARY REDEPLOYMENT FROM IRAQ: ISSUES AND CHALLENGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-101]

      U.S. MILITARY REDEPLOYMENT FROM IRAQ: ISSUES AND CHALLENGES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 21, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
56-005                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, October 21, 2009, U.S. Military Redeployment from 
  Iraq: Issues and Challenges....................................     1

Appendix:

Wednesday, October 21, 2009......................................    33
                              ----------                              

                      WEDNESDAY, OCTOBER 21, 2009
      U.S. MILITARY REDEPLOYMENT FROM IRAQ: ISSUES AND CHALLENGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Estevez, Alan F., Acting Deputy Under Secretary of Defense for 
  Logistics and Materiel Readiness, U.S. Department of Defense...     8
Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     4
Gainey, Lt. Gen. Kathleen M., USA, Joint Staff, Director for 
  Logistics (J-4), U.S. Department of Defense....................    10
Winnefeld, Vice Adm. James A., USN, Joint Staff, Director for 
  Strategic Plans and Policy (J-5), U.S. Department of Defense...     7

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele, joint with Vice Adm. James A. 
      Winnefeld, Lt. Gen. Kathleen M. Gainey, and Alan F. Estevez    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Skelton..................................................    53
 
      U.S. MILITARY REDEPLOYMENT FROM IRAQ: ISSUES AND CHALLENGES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, October 21, 2009.
    The committee met, pursuant to call, at 10:07 a.m., in room 
HVC-210, Capitol Building, Hon. Ike Skelton (chairman of the 
committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    Today, the committee meets to receive testimony on the 
status of the U.S. military redeployment from Iraq, issues and 
challenges. Our witnesses today are the honorable Michele 
Flournoy, under secretary of defense for policy, Vice Admiral 
James Winnefeld, director for strategic plans and policy, which 
is the J-5, Mr. Alan Estevez, the acting deputy under secretary 
of defense for logistics and materiel readiness, and Lieutenant 
General Kathleen Gainey, the director for logistics, which is 
known as the J-4.
    And, General Gainey, I believe this is your very first time 
in appearing before this committee. We certainly welcome you.
    This is the second full committee event on this subject. 
The first was a classified briefing on July the 22nd of this 
year, and I doubt it will be our last.
    Right now, the United States has over 120,000 combat forces 
in Iraq. Under the current plan, we will end the year with 11 
combat brigades, totaling somewhere around 100,000 personnel. 
In August 2010, our combat mission in Iraq will end and our 
military presence in Iraq will consist of six Advise and Assist 
brigades, with about 50,000 American military personnel.
    Reducing our military presence by over 50,000 people and 
thousands of vehicles in just a few months, while 
simultaneously closing bases, consolidating headquarters, 
continuing to conduct both combat and training operations, will 
not be a simple undertaking.
    Such an enormous operation, conducted in a complex 
environment, demands extensive planning and inspired execution. 
Assuming this phase of the redeployment goes smoothly, we will 
slowly withdraw the remaining brigades until we meet the terms 
of the U.S.-Iraq Status of Forces Agreement (SOFA) and there 
are no U.S. military personnel on January 1, 2012.
    This period and the period immediately afterward could well 
provide a jarring transition. For starters, the Iraqis will 
have to assume full responsibility for internal security, and 
there are questions if they will be fully capable in that area 
by the time we leave.
    We have provided the Department with the requested 
authority to transfer some current U.S. military equipment to 
the Iraqi Security Forces (ISF), and I hope our witnesses will 
address how that process will work, in particular, how we will 
ensure that this process will not hurt the National Guard's 
capability to respond to disasters and other emergencies here 
in the United States.
    I hope that they will take a minute to discuss potential 
future requests for assisting of the Iraqis. I hope our 
witnesses will also take a moment to discuss how Iraq will be 
provided protection from external threats and how long such a 
commitment might last.
    Our military command in Iraq will also be transitioning a 
number of responsibilities to the United States embassy and the 
government of Iraq during this point. Some of these, such as 
providing protection for provincial reconstruction teams 
(PRTs), may be relatively easy to move to the State Department. 
Others, however, such as providing for the training of Iraqi 
police or resourcing future military assistance through the 
Foreign Military Sales (FMS) or Foreign Military Financing 
(FMF) process may prove more challenging for the State 
Department to--and its ability to manage. I hope our witnesses 
can take a moment to lay out what major functions will have to 
transition, how this will happen, how it will come to pass.
    This is ongoing process. I don't think anyone on this 
committee thinks it will be the last hearing on this subject. 
We have been involved in Iraq for a long time, as you know, and 
I believe we will be involved there for a long time to come. We 
owe it to those outstanding and brave men and women who have 
given their lives to get to this point to make sure that we get 
it right.
    Now, while this may not be our last hearing on Iraq, it is 
the last hearing for Alicia Haley, one of our able staff, and 
we wish her well in her future endeavors as she goes to another 
position within the Administration.
    Now I turn to my good friend, Buck McKeon, the ranking 
member and gentleman from California, for comments.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. And thank you for 
holding this very important hearing. And I join you in 
welcoming our witnesses and thanking you all for being here 
today.
    We have made remarkable progress in Iraq. Violence 
continues to stay at a level comparable to 2003. The provincial 
elections earlier in the year were a success, and the SOFA 
agreement has held together.
    Most recently, in June, the Iraqi Security Forces assumed 
primary security responsibility within Iraqi cities, and U.S. 
combat forces departed the last remaining cities. As I had 
previously stated, the question we face in Iraq is not whether 
we have won the war, but whether we will win the peace.
    We heard encouraging testimony from General Odierno last 
month. While he acknowledged that security is improving, he 
cautioned, ``It is not yet enduring,'' and noted that, again, 
``There still remains underlying unresolved sources of 
potential conflict.'' This is what he calls drivers of 
instability. And that is what we need to keep an eye on.
    With national elections set for January, a referendum on 
the SOFA on the horizon, as well as other significant, 
unresolved political hurdles like the status of Kirkuk, there 
are many unknowns that will determine the prospect of enduring 
domestic peace in Iraq.
    The President's February 2009 plan calls for a dramatic 
reduction to the U.S. footprints in Iraq by August 2010. By 
next summer, the President plans to decrease our troop strength 
by 60 percent, in addition to closing bases and moving materiel 
out of theater.
    There seems to be widespread agreement that a peaceful 
national election in January is critical for Iraq's emerging 
democracy and the successful implementation of the President's 
redeployment plan. Last month, General Odierno was hopeful that 
the election will occur on time, if we get the election law 
passed.
    The London Times reported yesterday that the Iraqi 
parliament is now talking about delaying the elections in 
January. Yesterday, President Obama reaffirmed his commitment 
to his redeployment timetable.
    I am concerned that if the national election is, indeed, 
delayed, the President's timetable for redeployment offers 
General Odierno little room to maneuver. Do we have contingency 
plans in the event the security situation demands revisiting 
the August 2010 timeline? This plan arguably made sense in 
February. Does this still make the same sense today?
    Many of us here have consistently held the position that 
scheduling troop withdrawals in Iraq should be based on the 
conditions on the ground. The standard should continue to be 
that we do not draw down forces if it means sacrificing 
security. I hope our witnesses will affirm their commitment to 
that standard.
    As we begin executing the President's redeployment plan, we 
also need to keep an eye on the future. This leads me to 
concerns about the normalization of our relations with Iraq. 
After all we have invested in Iraq, we should be taking steps 
to ensure that we pursue a robust security relationship with 
Baghdad.
    Our increase in combat forces was not the only reason the 
surge was successful. Rather, Ambassador Crocker and General 
Petraeus knew how to leverage our presence to ensure Iraqi 
leadership made the right choices. I am concerned that we may 
be retreating from this posture too quickly in an effort to 
normalize our relationship with Iraq.
    In particular, we need to keep an eye on how our military 
in Iraq hands over responsibility to our embassy in Baghdad. 
Multi-National Security Transition Command-Iraq (MNSTC-I) has a 
critical role in developing and sustaining the Iraqi Security 
Forces. We need to make sure that the embassy is ready for the 
handoff.
    As General Odierno emphasized last month, this is an 
embryonic democracy. While the situation in Iraq has improved, 
I think it is fair to say the situation is far from normal. So 
long as we have a force presence in Iraq, our leadership should 
continue to involve itself in Iraqi political affairs to ensure 
the right decisions are made. Robust engagement seems to be the 
key to a redeployment plan.
    I look forward to a candid discussion on these important 
issues. Again, thank you for being here this morning.
    I yield back.
    The Chairman. I thank the gentleman from California.
    One statement has been furnished from the witnesses. As I 
understand it, it is a consolidated statement. However, I 
understand that each of you will be testifying this morning. 
But we will begin with the under secretary.
    Madam Under Secretary, we welcome you again.

STATEMENT OF HON. MICHELE FLOURNOY, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Chairman Skelton, Representative 
McKeon, and distinguished committee members, we very much 
appreciate the opportunity to appear before you today.
    We have briefed the committee in July on the President's 
Iraq drawdown strategy, and we are pleased to be able to follow 
up today to discuss the Department of Defense's (DOD's) 
continuing efforts to draw down equipment in Iraq.
    As you know, on February 27th of this year, the President 
announced that, in accordance with the U.S.-Iraq security 
agreement, he would begin a responsible drawdown of our forces 
in Iraq. He directed a fundamental change of U.S. military 
mission. By August 31, 2010, U.S. forces in Iraq will complete 
the transition from combat and counterinsurgency activities to 
a more limited mission.
    We will shift to focus on training and advising the Iraqi 
Security Forces, conducting targeted counterterrorism 
operations, providing force protection for U.S. personnel and 
facilities, and supporting civilian agencies and international 
organizations in their capacity-building efforts.
    We have continued along the timeline laid out by the 
President. On June 30th of this year, as you know, U.S. combat 
forces repositioned out of Iraqi cities. And for the first 
time, Iraqi forces assumed responsibility for security within 
cities, villages and localities across the country.
    The ISF have performed quite well since June 30th of 2009, 
and to underscore what General Odierno told you in his recent 
testimony, the security situation in Iraq continues to improve, 
despite a few high-profile attacks. Our initial force 
repositioning also helped to demonstrate to the Iraqi people 
that we remain committed to the timeline agreed upon in the 
U.S.-Iraqi security agreement.
    While the Iraqi security forces have improved greatly in 
recent years, they still require our sustained support. The 
global economic turndown has driven down the price of oil, 
causing budget shortfalls for the Iraq government. These 
shortfalls have resulted in hiring freezes and hindered some of 
the ISF's ability to field critical equipment. Much remains to 
be done to enable the ISF to assume full responsibility for 
internal security by December 31st of 2011, when the security 
agreement comes to an end and the drawdown of U.S. forces is 
slated to be complete.
    Multi-National Force-Iraq (MNF-I) assesses that, in order 
to maintain stability when the U.S. drawdown is complete, the 
ISF must at a minimum have the capacity to secure its 
population, conduct internal defense, and conduct basic 
external defense. Over the past several years, the government 
of Iraq has steadily increased its capacity to fund its own 
defense needs.
    In 2005, the Iraqi government was only able to contribute 
$2.4 billion of the cost of funding the ISF. In 2009, the Iraqi 
government contribution increased to $9.6 billion.
    Nonetheless, without our assistance, the ISF will not be 
able to develop the needed capabilities and address their 
remaining budgetary and equipment shortfalls within the 
necessary timeframe. We believe that increasing ISF 
capabilities is the best way to ensure that our hard-fought 
security gains in Iraq will not be lost as we draw down.
    And to that end, MNF-I has developed an ISF equipment 
requirements list, and the joint staff has revalidated that 
list to develop solutions that address Iraqi shortfalls.
    To assist the ISF, the Administration has requested the 
authority to provide the government of Iraq with unlimited 
excess materiel. This includes everything from commercial 
trucks to individual clothing and equipment, such as helmets 
and body armor. We have also requested the authority to 
transfer non-excess equipment, such as pistols, cargo trucks, 
up-armored Humvees, and we would like to thank the committee 
for including this authority in the authorization bill. It will 
certainly help to ensure that the ISF can fulfill their mission 
by the time the U.S. forces depart, an absolutely vital step 
towards the goal of a sovereign, stable, and self-reliant Iraq.
    Given the government of Iraq's budget shortfalls and the 
ISF's requirements, the Iraqi government may ultimately require 
additional assistance beyond the transfer of excess and non-
excess equipment. We are still evaluating how much and what 
type of additional assistance may be needed, and we look 
forward to coming back to you at a future date with a plan in 
those areas.
    In order to balance our own needs with those of the ISF, as 
well as the needs of the Afghan National Security Forces 
(ANSF), which we are also seeking to address, the Department 
has established a very robust process to determine which 
equipment it can appropriately transfer.
    A core principle in our decision-making is that equipment 
will only be considered for transfer if it is not needed by 
U.S. forces in Iraq and Afghanistan. As plans for the transfer 
of non-excess equipment to the Iraqi and Afghan security forces 
are refined, DOD will also work with the military services to 
manage the cost of replacing that transferred equipment.
    The financial requirements associated with the replacement 
of transferred equipment will be part of the Department's 
normal budget development process. In that process, we will be 
taking into consideration the timing of the transfer of 
equipment and the urgency expressed by DOD components for 
reimbursement or replacement.
    This committee has previously and again today expressed 
concern about the impact on Reserve component of transferring 
non-excess items. And we are pleased to report that Reserve 
component equipment will not be used as a source for ISF 
requirements. In fact, Reserve units serving in Iraq are being 
offered the opportunity to take theater-provided equipment back 
to their home station to fill any authorized shortages.
    Ultimately, the ISF will only be effective if they are 
viewed as legitimate across Iraqi society. And to help ensure 
that the ISF remains a non-sectarian, nationalist element, 
loyal to the government of Iraq, we are tying continued ISF 
assistance to their non-sectarian performance.
    Let me close with a word on the equipment drawdown. As 
President Obama has directed, by August 31st of 2010, we will 
seek to reduce our footprint in Iraq to a transition force of 
no more than 50,000, and we have already begun that drawdown. 
Over 143,000 troops were serving on the ground in January of 
this year. We are now just under 120,000.
    Needless to say, the challenge of drawing down our troops 
is paralleled by the challenge of drawing down all the 
equipment that is not appropriate for transfer to the ISF or 
the Afghan National Security Forces. At the moment, roughly 3.3 
million pieces of equipment remain in Iraq. Although some of 
this equipment will be provided to the ISF to help improve 
their capabilities, the vast majority of the equipment will 
remain with U.S. forces and will either be returned home or 
transferred to Afghanistan.
    DOD and U.S. Central Command (CENTCOM) have been planning 
this equipment drawdown for over a year. We have now begun to 
execute it. The services have all identified which pieces of 
equipment are not mission-essential and can therefore be 
retrograded early. And this way, we will be able to draw down 
the equipment gradually as the troops draw down.
    Throughout the equipment process--drawdown process, the 
relevant DOD components will be meeting on a regular basis to 
resolve various issues that will inevitably arise during this 
very complex logistical operation.
    Let me close by emphasizing that we continue to plan for 
and implement a responsible U.S. drawdown, one that advances 
our goal of a stable, sovereign, and self-reliant Iraq. We are 
continuing our efforts to train and equip the ISF so they can 
effectively defend the Iraqi people and protect Iraqi 
institutions by the end of 2011.
    We are also committed to conducting the drawdown of troops, 
equipment, and materiel in a manner that addresses the needs of 
our own military and our obligations to the American taxpayer. 
While doing all of this presents significant challenges, we are 
confident that we are making progress towards our goals on the 
timeline laid out by the President.
    Again, I am happy to take any questions on potential 
developments in Iraq that may--we may need to respond to and as 
we refine and adjust our plans going forward during the 
question-and-answer (Q&A) period. And I want to thank you for 
allowing us to testify today. We look forward to working with 
this committee on these issues as we move forward.
    Thank you.
    [The joint prepared statement of Secretary Flournoy, 
Admiral Winnefeld, Mr. Estevez, and General Gainey can be found 
in the Appendix on page 37.]
    The Chairman. Thank you very much.
    Admiral Winnefeld.

 STATEMENT OF VICE ADM. JAMES A. WINNEFELD, USN, JOINT STAFF, 
DIRECTOR FOR STRATEGIC PLANS AND POLICY (J-5), U.S. DEPARTMENT 
                           OF DEFENSE

    Admiral Winnefeld. Chairman Skelton, Ranking Member McKeon, 
members of the committee, good morning, and thank you for the 
opportunity to meet again with you to discuss progress in 
executing the President's strategy for a responsible drawdown 
in Iraq.
    I would first like to tell the members how thankful we are 
for the support we have received from the committee, especially 
with regards to the Fiscal Year 2010 National Defense 
Authorization Act (NDAA). I would like to publicly congratulate 
your staff members for their hard work and significant 
contributions to our progress. They have done a really, really 
good job.
    Since our last hearing in July, U.S. Central Command and 
Multi-National Forces of Iraq have remained on track to meet 
the President's guidance for the responsible drawdown. In March 
of this year, when we spoke to you, the coalition footprint in 
Iraq was 141,000 troops. When I spoke to you in July, when we 
spoke to you together, it was 132,000. And by the end of this 
month, we expect our footprint to be approximately 120,000. We 
also have our first two Advise and Assist brigades on the 
ground doing the work they were designed to do.
    A commensurate reduction in the number of bases we occupy 
has put us ahead of the schedule outlined earlier for you this 
year. We have 35,000 fewer contractors on the ground in Iraq 
than we did in January of this year. And based on the security 
gains made to date, as you have heard recently, General Odierno 
decided to off-ramp a brigade combat team (BCT), the 1st of the 
10th Mountain, scheduled for deployment to Iraq on January 1, 
2010. This will move us towards the 10 brigade combat teams at 
the time of the Iraqi elections, well on our way to the 6 
Advise and Assistance brigades that we plan to have on the 
ground by September 1, 2010.
    Next spring, MNF-I will begin to redeploy forces in a 
manner that General Odierno describes as thinning the lines. 
This will enable MNF-I to redeploy their remaining brigade 
combat teams battalion by battalion through the summer of 2010. 
This approach will allow MNF-I to maintain key partnerships 
with regional leaders, particularly in Iraq, for the maximum 
time possible, while reducing the force to 50,000.
    MNF-I is currently planning for the final phase of the 
drawdown after September 1st of 2010. This plan, which will be 
completed in this spring timeframe--late winter, early spring--
will ensure the successful execution of training and assistance 
operations after September 1, 2010, and ultimately the 
transition to a strategic partnership with Iraq.
    Meanwhile, the Iraqi Security Forces, which we will refer 
to as ISF, have come a long way since the security agreement 
was signed in November of 2008, and we have witnessed a number 
of operational successes, of which you are aware. These include 
our successful withdrawal from the cities to which the chairman 
referred this past June, which provided a significant 
psychological boost to the Iraqi security forces and, contrary 
to some reports at the time, actually helped cement our 
relationship with those forces.
    And as horrific as the attacks on August 19th were, we saw 
in their aftermath an Iraqi Security Force that was capable 
enough to conduct a thorough investigation and flexible enough 
to adjust their procedures to reduce the possibility of a 
reoccurrence.
    Thus, we are seeing an Iraqi Security Force that is 
increasingly independent of U.S. support and assistance. 
However, the ISF still have a long way to go to achieve the 
capabilities and capacities they need, including rounded-out 
internal security forces and a foundational external defense 
that will allow our complete drawdown by December 31st of 2011.
    The government of Iraq will not achieve these capabilities 
without the continued dedicated support of MNF-I and the rest 
of the U.S. Government. The legislative authorities recently 
granted to the Secretary of Defense to transfer excess and non-
excess equipment to the Iraqi security forces are absolutely 
essential and very much appreciated in meeting the identified 
capability requirements that we have.
    In conclusion, through the efforts of U.S. Central Command 
and MNF-I, in concert with Embassy Baghdad, we will continue to 
plan and execute a responsible drawdown from Iraq that ensures 
we meet the objectives outlined by the President. As General 
Odierno pointed out during his recent testimony, concerns 
remain, including Arab-Kurd tensions, the election process, 
which we have been watching unfold over the last day or so, 
government capacity, and the potential for interference from 
violent extremists.
    Nonetheless, we do remain on track, and we intend to 
continue the drawdown in a manner that protects our military 
forces and civilians, exercises good stewardship over the 
resources provided to us, does not jeopardize the readiness of 
our military as we reset, and leaves a stable, secure, and 
self-reliant Iraq as a long-term strategic partner to the 
United States.
    Once again, thank you for the support you have provided and 
that you have consistently provided to our soldiers, sailors, 
airmen and Marines, and I look forward to your questions. Thank 
you very much.
    [The joint prepared statement of Admiral Winnefeld, 
Secretary Flournoy, Mr. Estevez, and General Gainey can be 
found in the Appendix on page 37.]
    The Chairman. Admiral, thank you.
    Mr. Estevez.

STATEMENT OF ALAN F. ESTEVEZ, ACTING DEPUTY UNDER SECRETARY OF 
 DEFENSE FOR LOGISTICS AND MATERIEL READINESS, U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Estevez. Chairman Skelton, Ranking Member McKeon, 
distinguished members of this committee, thank you for the 
opportunity to appear before you and discuss the Department of 
Defense's ongoing efforts to withdraw U.S. assets from Iraq.
    In my capacity as the acting deputy under secretary of 
defense for logistics and materiel readiness, I am responsible 
for developing overarching logistics policies for the DOD to 
include the logistics policies which are supporting General 
Odierno's drawdown strategy for combat forces in Iraq.
    Given the President's decision on troop strength 
reductions, a concerted effort is ongoing in the Department to 
assess and synchronize logistics drawdown actions and policies 
to fully support the drawdown strategy. Having said that, the 
Department's mission is not only focused on systemically and 
responsibly drawing down our forces, supplies, and materiel in 
Iraq, but also on fulfilling U.S. combat equipment requirements 
in Afghanistan and on providing equipment capabilities to the 
Iraqi Security Forces and the Afghan Security Forces.
    The magnitude of our logistics challenges associated with 
successfully supporting these mission requirements is enormous. 
Today in Iraq, we have over 289 of the 495 forward operating 
bases remaining to turn over, roughly 3.3 million pieces of 
equipment, 49,000 sea-land containers, 34,000 short tons of 
ammunition, 22 supply support activities, and 21,000 short tons 
of supplies.
    The good news is, we know how to do this. We know how to 
redeploy. We have been doing it as part of our force rotations 
for six years, and we have the capacity. DOD and the Multi-
National Forces-Iraq, in coordination with the military 
services, have proactively developed and integrated and 
coordinated logistics, plans, policies, and direction to ensure 
the systemic and responsible drawdown of supplies and major end 
items in Iraq.
    In 2008, the military services reduced the amount of 
equipment and supplies flowing in to theater and instructed 
units to start shipping non-critical items out of Iraq. The 
Department directed the departing units to follow a four-step 
disposition process for drawing down excess supplies and 
equipment.
    The four-step disposition process that is in effect and 
being executed today is to consume, redistribute, transfer, and 
dispose. The responsible drawdown actions that we have taken to 
date have been accomplished while retaining logistics 
flexibility to adjust to operational changes in mission 
requirements.
    Excess property in Iraq is being reviewed against combat 
equipment requirements in Afghanistan and DOD's overall 
requirements. The Department, in coordination with the General 
Services Administration (GSA), which is responsible for the 
transfer of excess property to state and local entities, has 
established a process that would allow state and local entities 
the opportunity to screen excess property in Iraq prior to it 
being transferred to the Iraqi government.
    However, it is unlikely that much of the property is 
suitable for state and local agencies based on the property's 
operational condition or items that are--meet foreign 
specification standards, in other words, are running on 220 
volts rather than 120.
    The military departments continue to emphasize the 
importance of maintaining property accountability and 
visibility throughout the equipment drawdown and retrograde 
process. Weekly senior-level video teleconferences between the 
Iraqi theater and Department have proven invaluable in 
synchronized coordinating and facilitating solutions affecting 
the successful execution of the overarching drawdown mission.
    In closing, Mr. Chairman, thank you for the opportunity to 
testify before the committee. The Department is achieving 
logistics unity of effort in executing the President's 
directive to systemically and responsibly draw down the size of 
U.S. forces in Iraq.
    We have a plan for the equipment coming out of Iraq and 
have been working this for many months. We are tracking 
drawdown progress against specific goals and will provide 
whatever policy assistance is required to meet the President's 
timelines. With continued support from this Congress, the 
Department can execute all of the required drawdown tasks.
    I would be happy to answer any questions that you or 
members of the committee may have. Thank you.
    [The joint prepared statement of Mr. Estevez, Secretary 
Flournoy, Admiral Winnefeld, and General Gainey can be found in 
the Appendix on page 37.]
    The Chairman. Thank you.
    Lieutenant General Gainey, welcome.

  STATEMENT OF LT. GEN. KATHLEEN M. GAINEY, USA, JOINT STAFF, 
    DIRECTOR FOR LOGISTICS (J-4), U.S. DEPARTMENT OF DEFENSE

    General Gainey. Chairman Skelton, Ranking Member McKeon, 
and distinguished members of the committee, good morning, and 
thank you for this opportunity to appear before you and to 
discuss the Department of Defense strategy and ongoing 
initiatives to responsibly draw down from the United States 
assets from Iraq.
    I am Lieutenant General Kathleen Gainey, director of 
logistics on the Joint Staff. As director of logistics, I am 
the principal adviser to the Chairman of the Joint Chiefs for 
the entire spectrum of joint logistics, to include reviewing 
the logistics policies and processes that are guiding the 
drawdown strategy in Iraq, as well as the Joint Staff lead in 
the effort to equip the Iraqi security forces.
    Mr. Chairman, we have been redeploying significant amounts 
of forces out of Iraq and Kuwait for each of the past six 
years. The Department of Defense has been planning for and 
executing the mandated drawdown of forces from Iraq for over a 
year. The planning and execution have been a coordinated effort 
among Multi-National Force-Iraq, the services, the Department 
of State, Central Command, and its components.
    Central Command, through its service components, is 
orchestrating the process that determined the responsible 
drawdown strategy and additionally has positioned teams in Iraq 
whose primary focus is providing on-site assistance for the 
drawdown. Those teams, in concert with their parent service, 
have identified materiel and equipment no longer required to 
support operations in Iraq and can either be re-postured to 
support operations in Afghanistan or sent back to the United 
States.
    My assessment concludes that the process guiding the 
drawdown and the strategic transportation infrastructure in 
Iraq and in Kuwait are sufficient to fully support the drawdown 
strategy. If needed, we have the option to direct the flow of 
some equipment through our regional partners' ports, such as 
those in Jordan and Turkey.
    A key component of the drawdown strategy is the development 
and the use of metrics to measure our progress toward the 
required posture for the 31 August, 2010, and beyond. The 
various components within Iraq and Central Command area of 
responsibility (AOR) have established milestones, such as total 
containers or numbers of vehicles on hand.
    To chart their progress relative to that end state, these 
leading indicators enable commanders to grade themselves and 
gauge their progress against this established goal. As you 
heard in testimony from Secretary Flournoy earlier, it is an 
essential element of our drawdown strategy, is equipping Iraq's 
security forces. As the Joint Staff lead, I am responsible for 
overseeing the process of equipping the Iraq Security Forces, a 
process involving Multi-National Force-Iraq, Central Command, 
Defense Security Cooperation Agency (DSCA), the Joint Staff, 
the services, and the National Guard Bureau.
    This calculated process, which includes validating 
requirements, adjudicating risk to the services, developing 
sourcing solutions, and we have reached a successful conclusion 
and the recommendations were brief to the Joint Chiefs two days 
ago on 19 October.
    Of the approximately 1,000 equipment categories, 42 percent 
were sources from service-declared excess equipment, and 51 
percent were recommended for sourcing through sale from stock. 
The remaining 7 percent represents roughly $233 million in 
equipment and requires the Secretary of Defense to direct the 
transfer under the authorities provided to us by section 1234 
of the National Defense Authorization Act.
    During our last testimony before this committee, a chief 
concern was the potential impact to the National Guard and the 
ability to respond to domestic incidents. I am pleased to 
report that we were able to arrive at a previously stated 
recommendation and that for sourcing Iraqi Security Force 
without having to expend National Guard Reserve component 
equipment.
    Additionally, National Guard Reserve component units 
currently serving in Iraq have the opportunity to take theater-
provided equipment back to their home station to fill any 
authorized shortages.
    In closing, Mr. Chairman, thank you for this opportunity to 
testify before the committee. We firmly believe that the 
description of the drawdown as a responsible drawdown is 
fundamental to this process, and we understand the criticality 
of good stewardship and property accountability of United 
States assets in Iraq. And therefore, we are diligently 
tracking drawdown progress against specific goals.
    At the same time, we are also focused on doing everything 
within our power and the authority to enable the Iraqi Security 
Force to operate effectively once the drawdown is complete.
    I would be happy to answer any questions that you or 
members of the committee may have. Thank you.
    [The joint prepared statement of General Gainey, Secretary 
Flournoy, Admiral Winnefeld, and Mr. Estevez can be found in 
the Appendix on page 37.]
    The Chairman. General, thank you for your testimony.
    Admiral, it was kind of you to compliment the committee for 
our work and for what we have done for the young men and young 
women in uniform. And I think you specifically spelled out the 
Fiscal Year 2010 National Defense Authorization Act that we 
just passed a few days ago.
    Back on July the 22nd, Madam Under Secretary, we asked that 
the Department of Defense provide our committee with a copy of 
up forward 0901, which is, so the members will remember, the 
order that lays out the organizations and responsibilities for 
various functions in how the redeployment will work. Despite 
repeated requests by our staff of the Department of Defense, 
then up forward 0901 has not been provided, nor has there been 
a legal reason given for not providing it for us.
    Now, we pass legislation based upon testimony, based upon 
briefings, based upon documents, and all of this goes together 
to put us in a position to receive compliments like Admiral 
Winnefeld just gave us, on putting out good legislation. But 
this one piece of legislation which is highly important on 
redeployment from Iraq thus far, unless you are willing to give 
it to us this morning, has not been furnished.
    Secretary Flournoy. Sir, I am--we are quite happy to bring 
that Operations Plan (OPLAN) over to you to have staff brief 
you on the details----
    The Chairman. And you will leave it with us in our 
classified----
    Secretary Flournoy. And I regret that we were not more 
responsive to your request earlier. But what we would like to 
do is come over and share it with you, brief you on it, and we 
can work out the details of how it should be handled in 
declassification.
    The Chairman. Well, the details are not just come over and 
show it to us and walk back with it.
    Secretary Flournoy. I understand.
    The Chairman. We are very responsible in this committee, 
and we are----
    Secretary Flournoy. I understand.
    The Chairman [continuing]. Responsible in classified 
material, as you know. It is some 400 pages long. And come 
over----
    Secretary Flournoy. I understand.
    The Chairman [continuing]. And give us a rough look at 400 
pages is pretty difficult. And we would expect full 
cooperation. And, really, is there some reason--I mean, we 
really want to know. I am not trying to be difficult.
    Secretary Flournoy. There is----
    The Chairman. I just really want to know.
    Secretary Flournoy. There is no intention to keep the 
information from you at all. And, again, we want to be 
responsive to your request.
    The Chairman. But that was July the 22nd.
    Secretary Flournoy. I understand. I think it was recently 
brought to my attention, and we want to make sure that we are 
responsive to your request as soon as possible. So I don't have 
it physically with me today, but I can promise you that we will 
get it over----
    The Chairman. You will bring it over and leave it with us 
in a classified manner so we will have the time to go through 
the 400 pages. Is that correct?
    Secretary Flournoy. Yes.
    The Chairman. Thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I have this article that was written in the London Times 
yesterday. The title is ``Violence Threatens Barack Obama's 
Pledge to Pull Troops Out of Iraq.'' And what they are 
basically saying is that they are threatening to move back the 
election from January.
    The election can't be held until their parliament passes an 
election law. And Al Qaeda doesn't want to have an election, 
and they want to do what they can to disrupt it. General 
Odierno feels that he needs to keep his troops there 30 to 60 
days after the election to ensure a peaceful transition of 
government.
    Do you have any intelligence showing that--or any feeling 
that the election is going to be postponed?
    Secretary Flournoy. Let me start by saying, you know, the 
drawdown plan that we have is conditions-based. And it creates 
multiple decision points for re-evaluating and, if necessary, 
changing our plans based on developments on the ground.
    Although the government of Iraq's self-imposed deadline of 
October 15 for passing the elections law has passed, we judge 
that the Council of Representatives (COR) still has another 
week or two to come to some kind of agreement on an elections 
law before it will put the early January date in jeopardy, in 
terms of the election commission's ability to actually 
physically execute the election.
    If a new law with open lists is not passed, the fallback 
option for them is to return to the 2005 election law, which is 
based on a closed list system, and that--but that could be 
still used for upcoming elections, and the COR would simply 
have to vote on an election date.
    If that law is not passed in the next two weeks, they will 
be looking at slipping the date to later in January, which 
would still be compliant with the constitution, but would be 
later than originally planned. In that instance, MNF-I would 
need to engage with the government of Iraq to do some 
contingency planning on how to secure the elections at a later 
date, and that might well have implications.
    But I just want to reinforce right now, on the ground in 
Baghdad, here in Washington, just yesterday, our focus is on 
trying to stick to the current election timeline. The President 
personally impressed upon Prime Minister Maliki the importance 
of sticking to the constitutionally specified timeline for the 
Iraqi elections, and we are putting all of our diplomatic 
effort towards that end.
    That said, of course, we will have contingency plans to 
adjust, if necessary. But right now, we are using all of our 
diplomatic and other leverage to try to make sure the elections 
happen on time.
    Mr. McKeon. We won't be forcing General Odierno to withdraw 
our troops if they don't hold the election in a timely manner? 
We will still be flexible and allow him to keep the troops 
there to provide the national security, so they don't put 
themselves at risk in trying to rush out in a couple-month 
period?
    Secretary Flournoy. The drawdown plan is not rigid. It is 
conditions-based. It leaves room for re-evaluation and 
adjustment, in terms of the pace of the drawdown between now 
and the end of 2011. So if need be, we will re-examine things 
based on conditions on the ground.
    Mr. McKeon. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Estevez and General Gainey, one of my concerns has been 
who will make the decisions about what equipment would be reset 
into the Army or the Marine Corps versus what will be provided 
to the Iraqis. And what are the criteria for those decisions? 
Because we do have--and I have no idea, of the 3 million pieces 
of equipment, how many of those have been damaged and how much 
of that equipment belongs to the Reserves or how much of that 
equipment belongs to the National Guard?
    And specifically, what are the Army's plans for theater-
provided equipment in Iraq, especially the rolling stock in the 
inventory? And what is going to be brought back to the United 
States for reset? And what would be used to replenish 
preposition stock? And that has been a problem for several 
years.
    And in regard to reset, what has been done to increase the 
depot capacity in preparation for the potentially huge influx 
of equipment from Iraq? Is our depot industrial base ready? Is 
it getting ready to accept some of this equipment? And maybe 
both of you can at least enlighten me a little bit.
    General Gainey. Congressman Ortiz, thank you very much. The 
items to determine what is retrograded back, and what remains 
with the Iraqis as a possible item for transfer, that decision 
is made by the services. They look first at their equipment 
shortfalls back here in the United States and what the 
requirements are for our services back here.
    They meet those needs first. Then they can identify that 
equipment which is excess, which they have done. Those items 
are predominantly what we are looking at to transfer.
    There is also items that we have--what we call long in 
supply. And so those items are then categorized for sale from 
stock, because we have sufficient back in the United States to 
sell from our stocks here.
    Then that last category is that non-excess. That is that 
seven percent that I talked about. And those are critical items 
to allow the Iraqi Security Forces to be stood up at a stage 
which they can then do internal defense and basic self-defense.
    Those items are the ones that we have identified that the 
services feel that they can assume risk in to their readiness 
and have designated those items as acceptable to transfer to 
meet the requirements of the Iraqi Security Forces.
    For the depot capacity, we feel that the depot capacity we 
have today is sufficient. We have the plan in concert with the 
retrograde coming out. The retrograde will not negatively 
affect any of the depot workloads. We will adjust workloads 
given the requirements of what we have to reset to meet the 
force generation model to send forces back over and to make 
them ready for any future contingency.
    Thank you, sir.
    Mr. Estevez. If I could just add on to what General Gainey 
said, Congressman, the vast majority--the vast, vast majority 
of the equipment coming back will go back to U.S. forces. The 
stuff that we are transferring, there was a small amount of 
what we would call military green equipment that is going to be 
transferred to the Iraqis.
    The stuff that is coming back will go through, as General 
Gainey alluded to, the Army Force Generation (ARFORGEN) process 
for Army equipment, so that will go into depot, depending on 
the status of its repair requirement, and then flow back into 
the Army forces based on their need, and eventually everything 
will flow through. It will probably be about a two-year process 
after we draw down before we have run everything through the 
depots, in order to get back into a full capability. With that 
said, the capacity is there to meet our force requirements 
while we are still repairing equipment through the depot 
process.
    Mr. Ortiz. One of my concerns has been that Government 
Accountability Office (GAO) in the past raised concerns that 
there was no complete inventory of the United States equipment, 
and the property books of many units were incomplete. And 
although when we had General Odierno come and testify, he 
suggested that they--that an inventory had been completed at 
the time of his testimony. And this bothers me whether it is 
completed or it is not.
    Mr. Estevez. In fact, it is completed. With that said, we 
are still going through processes, and things are found on 
forward operating bases (FOBs) that, you know, we should have 
had on the books. But we have gone through a definitive process 
with MNF-I and U.S. Army Central Command. We have weekly video 
teleconferences (VTCs) while we go through these numbers, and 
they are going out and ensuring that everything is captured on 
the property books.
    So that, you know, from July through late August timeframe, 
in fact, there was an uptick in the number of items that we 
said we had in Iraq versus a decrease while we were 
retrograding out. And that was because of the process of 
capturing those items onto property book. The 3.3 million 
number, which is down from 3.4 million, because we have pulled 
equipment out of Iraq, is a good number for us to work with.
    Mr. Ortiz. Thank you. My time is up. Thank you so much.
    The Chairman. I thank the gentleman.
    Gentleman from Missouri, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I guess it was a year or two ago, getting a status of the 
Iraqi troops, and we were talking about, well, they are pretty 
good at fighting, they are pretty good at this, pretty good at 
that. There are a number of things that were the last things 
they had to learn to do or that they didn't have capabilities. 
And, one, they didn't have much in the way of air support. Two, 
logistically, they weren't strong in that area. And then, 
three, medically, they didn't have the kind of medical 
resources that we had.
    Have we made some progress in those areas? Are the Iraqi 
troops able to at least make some efforts at air support, their 
own logistics and medical?
    And then the second question would be, the equipping of 
Iraqi troops, which apparently we are doing, are we getting 
paid for that, or is this just a freebie? Thank you.
    Admiral Winnefeld. I would say that the Iraqi Security 
Forces have come a long way in the last year, since you asked 
that question. I don't have any specifics at my fingertips in 
terms of exact numbers of aircraft and medical units and the 
like.
    I can tell you that, since we talked to the committee in 
July, that the Iraqi Security Forces operational readiness--the 
number of their units that have come up to operational 
readiness rating one has gone up by about 15 percent, just in 
that short period of time, which is indicative of pretty good 
progress. And that is the army.
    The Ministry of the Interior (MOI), the internal security 
forces, have almost doubled the number of units that have come 
up to that operational readiness, that the precise numbers are 
classified, but I can give you those percentages.
    Mr. Akin. Does that include, then, the logistical piece?
    Admiral Winnefeld. They are getting better at the 
logistics. And among the exact numbers of increasing up to 
operational readiness rating one (O.R. 1) includes command and 
control (C2) units and logistics units and the medical units. 
So they are improving. They are not anywhere near where they 
need to be for us to draw down completely, but they are 
definitely making progress. I would say the aviation piece is 
the hardest, but they are even making progress there.
    Mr. Akin. Good.
    Mr. Estevez. Congressman Akin, if I could jump in there, 
Army Materiel Command has helped the Iraqis stand up repair 
capability at Taji. They are using that capability. Defense 
Logistics Agency (DLA) is now in there working with them so 
they have a distribution depot warehousing-type capability to 
go with that. They were over here, looked at our capability, so 
we are helping them grow their logistics capability, has been 
in progress.
    Mr. Akin. Good. Do they have software and all to start to 
be able to track some of that all? Yes. And what is the story 
on equipping their--are they paying for the troop equipment 
that we are giving them? What are those? Are those uniforms and 
flak jackets and weapons and all our----
    Secretary Flournoy. Sir, it is----
    Mr. Akin [continuing]. Weapons and all our----
    Secretary Flournoy. It is a mix. Some of the items that we 
are transferring they are getting gratis. Some of the items we 
are transferring they are paying to refurbish. Some of the 
items that they are buying--particularly the major weapons 
systems--they are using--we are doing foreign military sales 
(FMS) to the Iraqi government. So it is really a mix, depending 
on the item.
    Mr. Akin. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, for holding this 
hearing.
    And I want to thank our panel for being here.
    Ms. Flournoy, I was lucky enough to start off in local 
government. And I think what we are seeing now around the 
country is sort of what I saw way back when, which is that 
almost every state and almost every city's revenues are down. 
And the things that they would have liked to have bought new, 
they are in many instances buying used or looking through the 
government surplus for these things.
    I very much remember after Katrina getting then-Chief of 
Naval Operations (CNO) Mike Mullen on the phone and informing 
him that almost every hospital in coastal Mississippi had gone 
underwater, that every generator in coastal Mississippi had 
gone underwater, and that we had a desperate need for things 
like tents to take the place of the hospitals, desperate need 
for generators. And I remember him saying something to the 
effect that, ``We don't have any. They are all in Iraq and 
Afghanistan.''
    Something like Katrina is going to happen again, whether it 
is man-made or the hand of God. And to that point and knowing 
what a big problem the lack of electricity was, the lack of 
just shelter was, to what extent are you taking those things 
that the military says they don't need anymore, putting them 
online for, number one, other government agencies like Homeland 
Security, but beyond Homeland Security, in a tiered manner much 
like we do with the DRMO, the defense reuse management office? 
To what extent are you making those things available to cities, 
states, and counties, and coming up with some sort of plan to 
get them back?
    Because I can assure you that--and I will give you just one 
for instance. The 8th 90th engineers had already done their 
hitch in Iraq in 2003. By the time they returned to 
Mississippi, they had left every piece of equipment behind. 
Now, they did a magnificent job after Katrina with only 60 
percent of the equipment they should have had, but the fact of 
the matter is, they only had 60 percent of the equipment they 
should have had.
    I heard what the general had to say, but my gut tells me 
that two or three years from now, I am going to be looking at 
an episode of ``60 Minutes'' that shows me billions of dollars 
of equipment that got left behind in Iraq that is probably 
going to end up on the world market, may end up in China or 
some other place.
    What steps are you taking to alleviate some of these 
problems up front? Because it did happen when we left Panama. 
It did happen when we left the Philippines. Heck, it happened 
when we left Vieques. We left a lot of good stuff behind.
    So what extent are you taking, thinking with that line of 
thought, that a five-kilowatt (kW) generator in Bay St. Louis, 
Mississippi, at the firehouse after Katrina, that is a big 
deal? It may not be a big deal to you right now, but I can 
assure you, under those circumstances, that is a big deal. What 
are we doing to make this equipment that we think of as little 
stuff, but to a city or a county is a big deal? What are we 
doing to make it available to them?
    Mr. Estevez. Congressman, if you don't mind, I will take 
that question.
    Mr. Taylor. Sure.
    Mr. Estevez. Let me start with the accountability. As I 
said to Congressman Ortiz, we have gone out, got things on our 
property books so we know what we have. If it is standard 
military gear and it is not excess, we are bringing it back, 
running it through the depot process, ensuring that the force--
and I mean the total force--Guard, Reserve--has what they need 
on their books.
    For non-standard gear, which includes commercial generators 
and the like, if it is excess to DOD requirements in Iraq, we 
are going through the same process we would go through in the 
states. And we have worked through this with GSA and the 
National Association of State agencies that draws equipment 
from our DRMOs in the states----
    Mr. Taylor. Okay. So for clarification----
    Mr. Estevez. Yes.
    Mr. Taylor [continuing]. Any state surplus office could go 
online and will be made aware of what is potentially going to 
be left behind in Iraq?
    Mr. Estevez. Yes, sir.
    Mr. Taylor. Okay. What do they do then?
    Mr. Estevez. If they see something they want, they can put 
a claim against that. They would have the same 14 days that 
they would have here to say, ``I want that.'' They can get more 
information about it. For example, you know, the generator 
could be 220, and they could decide they don't want it.
    After that 14 days, if they want it, they would have 
another 14 days to arrange through the forwarder that the state 
association has to come and claim it in Iraq.
    Mr. Taylor. Okay. Do you have--if my office wanted to take 
a look at that master list of what you have available, what 
is--or if a state surplus office wanted to look at it, what is 
that site?
    Mr. Estevez. That is a--and I will have to get you the 
exact site, sir, but it is a rolling number, of course, because 
as we close FOBs, forward operating bases, things become 
available. And that is when we post that out there, through an 
e-mail of, ``Here is the list of equipment that is available at 
this particular site that is going to become available.''
    Mr. Taylor. Would you have someone from your office get in 
touch with mine?
    Mr. Estevez. Absolutely, sir.
    Mr. Taylor. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Before I call on Mr. Hunter, Madam Under Secretary, let me 
ask, on page six of the written statement furnished to us, it 
says that we have made continued support of the Iraqi Security 
Forces contingent on their non-sectarian performance. Now, I 
suppose that means contingent upon the Shiites not shooting the 
Sunnis. How will we make judgments on this? Have we placed any 
other conditions on future assistance? Tell us about it.
    Secretary Flournoy. Well, I think this is something that we 
are in dialogue with the Iraqi government about and Iraqi 
commanders about on an ongoing basis, that we are supporting 
the development of the ISF towards a certain set of objectives. 
And one of those is making sure that the military is truly 
representative of Iraq. It is a national institution. It is not 
a tool that any one individual or party or person in power can 
use for sectarian aims.
    We continue to monitor that. In many instances, we have had 
many opportunities to work through specific issues. And, 
frankly, the Iraqis have been very responsive over time on this 
point. They understand that the only way we can get the support 
here to support them is to demonstrate that they truly are a 
non-sectarian institution, so we continue to bring that home at 
every level, from the tactical all the way up to the 
headquarters here in Washington when we have interactions.
    The Chairman. If we do see some sectarian performance, what 
do we do?
    Secretary Flournoy. Generally what has happened is the 
ambassador and General Odierno have called the government and 
the military on the issue, immediately gone in to discuss it 
with them, and worked out remedial steps to either, you know, 
isolate a unit, to step in and deal with a situation, and so 
forth. They have also taken very proactive initiatives, such as 
initiatives to try to get the ISF, for example, and the 
Peshmerga working much more closely in border areas where the 
two forces come up against each other.
    And so I think they have done both reactive steps and 
proactive steps. But, again, we have seen--we have--you know, 
we have seen a decrease, a decline in that kind of behavior 
over time. And so that is the good news. It is something we 
need to keep--continue to be watchful for, but it is something 
that has been very well-managed to this point.
    The Chairman. If there is a severe sectarian act, at what 
point do we say, ``Sorry, we are out of here''?
    Secretary Flournoy. Well, you know, again, I think, you 
know, I don't want to speculate on exactly what could provoke 
that kind of thing. What I can say is we take it very 
seriously, we have taken it very seriously, and we----
    The Chairman. Well, the important thing is----
    Secretary Flournoy [continuing]. And the trend has been 
increasing.
    The Chairman [continuing]. Is, do they take it very 
seriously?
    Secretary Flournoy. They certainly understand, when this 
has--you know, in the instances this has happened, the reaction 
from us has been very swift and very clear. And it has had 
impact. So I don't think there is any question in the minds of 
the Iraqi government where our red lines are on this issue.
    The Chairman. Thank you so much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And thank you, panel, for being here today. The first 
question is, is there any correlation between a troop drawdown 
in Iraq and the ability to surge troops in Afghanistan?
    Admiral Winnefeld. There is not a direct correlation in the 
sense that we are making judgments about the debate that is 
going on right now, the discussion, if you will, about the 
strategy for Afghanistan and tying that directly to the 
drawdown from Iraq. We have adequate capacity right now to do 
what we believe--whatever decision the President makes on 
Afghanistan, well within the current drawdown plan for Iraq.
    So there is no direct tie between the two, where, you know, 
you can't do this unless you do this. That is not happening 
right now.
    Mr. Hunter. But it obviously will alleviate strain on the 
overall strength----
    Admiral Winnefeld. Health of the force, I think, sir, is 
the real impact that--you know, that--if you were to keep more 
forces in Iraq and you plussed up in Afghanistan, of course, 
you would be imposing more health of the force risks on the 
force, but I don't--we are not in that situation right now. And 
the chairman is in very close consultation with the service 
chiefs to make sure that we keep that in mind at every step.
    Mr. Hunter. Got you. What force would you say in Iraq right 
now are actual combat forces, compared to combat service 
support?
    Admiral Winnefeld. What percentage of approximately 120,000 
people?
    Mr. Hunter. Yes. Yes.
    Admiral Winnefeld. I don't have an exact number. I mean, it 
all varies, of course, between----
    Mr. Hunter. What would you guess?
    Admiral Winnefeld. Well, we have 11 brigade combat teams 
(BCTs). So in terms of combat troops on the ground, you 
multiply that out, and you, you know--about 4,500 troops per 
brigade combat team. And then, of course, there are a lot of 
other forces over there that I would qualify as combat forces, 
to include the Special Operations Forces (SOF) we have over 
there. So we can get you a more detailed number on that.
    Mr. Hunter. As you withdraw then, do you draw down the same 
amount of each type of force, meaning, do you pull out service 
support last? Do you pull out combat guys first?
    Admiral Winnefeld. Well, it is not an exact, you know, one-
to-one correlation----
    Mr. Hunter. Right.
    Admiral Winnefeld [continuing]. That, you know, perfectly 
even glide slopes coming down.
    Mr. Hunter. In general, what would you do?
    Admiral Winnefeld. In general, I think, you know, General 
Odierno has pointed out that he wants to thin the lines, come 
out battalion by battalion within the brigade combat teams that 
are there in order to get down to the six Advise and Assist 
brigades.
    We have very difficult decisions that we do make between--
regarding enablers, in terms of making sure that we have got 
the correct balance of enablers between Iraq and Afghanistan. 
And those are drawn down, paced as required with the combat 
forces. And then the combat service support, there is a lot of 
base closure that has to happen and the like, and we need to 
provide for their force protection.
    So it is sort of a complicated animal. And I would say it 
is not, you know, a straight-line glide slope coming down for 
those forces together.
    Mr. Hunter. Got you. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here.
    Mr. Hunter began a discussion of a topic I wanted to ask 
about. I want to come at in a little bit different way. Last 
week, we had a very good hearing on Afghanistan policy. And one 
of the witnesses was General Jack Keane, that you all know 
retired at the end of 2003. And in his testimony, I was 
actually shocked by what he said, and I am going to read what 
he said. He said, ``It is a fact that Afghanistan, beginning in 
2002 and increasingly so in 2003, became a secondary priority 
in the war in Iraq. Indeed, it remained as such until this 
year, 2009, when only now we are beginning to shift our 
priority effort from Iraq to Afghanistan. As such, as a 
secondary effort, despite the addition of North Atlantic Treaty 
Organization (NATO) forces and resources, Afghanistan has 
always been operating at the margin and in most of those years 
below what was required in forces and resources.''
    That is what General Keane had in his written statement, 
and then he testified to. There were a lot of us who had been 
confused, I think, for some years about, at what point did Iraq 
become the priority, when we all said--and as a legislative 
body and American people were united in our resolve to take 
down the Taliban and go into Afghanistan. But one of the things 
we said was we were not going to abandon Afghanistan again.
    General Keane, who was involved in the highest levels of 
leadership, said we started abandoning Afghanistan at the end 
of 2002. That certainly wasn't part of our discussion in the 
months leading up to the debate over the Iraq war resolution. 
It certainly wasn't the discussion, as the years went by, that 
we had abandoned Afghanistan.
    Admiral, you, in response to Mr. Hunter, said we have 
adequate capacity to do both. What if things really go badly in 
Iraq and President Obama, who has already made the decision--he 
has already sent in 17,000 additional troops, has changed the 
leadership in Afghanistan, and clearly is making Afghanistan a 
higher priority--what if he were to decide we need to, in the 
secretary's words, be flexible, we are going to have to put 
troops back in?
    You say we have adequate capacity. We didn't. We didn't for 
six or seven years. If we had it, I don't know where they were, 
but we certainly didn't as a country respond to the need in 
Afghanistan. What assurance do we have that we have adequate 
capacity should we decide that we needed to return troops to 
Iraq?
    Admiral Winnefeld. Well, I would say right now our 
principal focus right now is to make sure that Iraq goes on the 
same trajectory that it is on and that we don't have to 
confront that decision. And so far, by every indication--and 
General Odierno, I think, was quite eloquent a week or so ago 
in describing how, even though there are concerns and there are 
potential drivers of instability, that Iraq is on track and 
that he and his partnership with the embassy over there are 
determined to keep it on track.
    If there are probably scenarios out there--and I don't want 
to speculate in public on what those might be--that could cause 
you to need to, you know, delay the drawdown a little bit or 
make the hump a little bit further out in the planning cycle 
there, but I believe that we, with the 10 brigade combat teams 
we will have on the ground early next year, that General 
Odierno has a very capable force on his hands to handle any 
number of contingencies that could arise.
    Dr. Snyder. Well, and--you know, and I accept your 
reassurance. It is just I would hate to see us having this 
discussion several years from now that says, well, when we 
shifted the priority to have General Jack Keane to come back 
and testify, whoever else was--maybe you--at a think-tank or 
some years from now and say, ``Well, we began shifting our 
priority, and things didn't go well, and we didn't have the 
resources,'' because that is clearly what has occurred. And it 
has only been--we finally got the attention--as President Obama 
came in and said we were going to put more troops in 
Afghanistan.
    Madam Secretary.
    Secretary Flournoy. I just wanted to--you know, we are very 
cognizant of the fact that we do not want to take our eye off 
the ball in Iraq. And I can assure you that we are having--the 
secretary continues to have equally--you know, equally frequent 
video teleconferences with General Odierno and the team on the 
ground. The deputies committee meets every other week on this. 
We are monitoring this as closely as we possibly can to make 
sure that we are getting after any kind of inkling, any kind of 
instance of--indicator of instability as soon as it occurs.
    The one thing I will say that I am hearing more and more 
from Iraqis is that a growing confidence that, despite the 
efforts of Al Qaeda in Iraq, remnants of the insurgency, they 
are trying very hard to try to spark sectarian reaction in--
with their attacks. It is not working.
    The groups that they were able to provoke and incite before 
have opted to participate in the political process. And that is 
the greatest insurance we have against the kind of scenario 
that you are worried about.
    Dr. Snyder. Thank you. Thank you for your service.
    The Chairman. Before I call on Mr. Wilson, let me ask--the 
GAO tells us that the Iraqis have approximately $48 billion in 
the bank. And with that as a background, what additional 
funding is planned to request for the purpose of training and 
equipping Iraqi Security Forces, especially in light of the 
fact that they have these oil revenues, Madam Under Secretary?
    Secretary Flournoy. Sir, I can't give you a firm answer 
yet. We are in the middle of an interagency discussion 
developing our proposal to you for a long-term approach to 
transitioning our relationship with Iraq to kind of a normal 
security assistance relationship over a multi-year period. 
There will be DOD elements of that plan, State Department 
elements of that plan, and certain assumptions about what the 
Iraqis themselves will pay for.
    We will come back to you when we have a clear sense of our 
bottom lines on that. And I expect that will be sooner rather 
than later. But I don't have specific, you know, answers for 
you today.
    The Chairman. I am sure that is what our colleagues will 
ask, members of this committee, particularly with a pretty 
large bank account like that.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you all for being here today.
    And, Secretary Flournoy, thank you so much for your 
comments in that we certainly can count on General Odierno. We 
have excellent military leadership in Iraq. And I am just so 
proud of his service, and I appreciate your recognizing that.
    As a representative of Fort Jackson, Parris Island, the 
Beaufort Marine Corps Air Station, I am grateful for the 
success in Iraq. I also agree with President Obama. He met 
yesterday at the White House with Prime Minister Maliki. The 
Washington Examiner reports today, ``We have seen in the last 
several months a consolidation of a commitment to democratic 
politics inside Iraq.'' I think the President is absolutely 
correct.
    And it is startling. I have a first-hand knowledge to it. 
My son served in Iraq. I have a nephew currently serving in 
Iraq. We have a very humble member of Congress here who didn't 
identify himself, but Congressman Duncan Hunter served in Iraq 
and Afghanistan.
    And, Admiral Winnefeld, General Odierno has confirmed 
before this committee that the relationship between the Multi-
National Forces-Iraq and Iraqi Security Forces are actually far 
more positive than the media portrays. What is your assessment 
of the relationship? What measures can be taken to further 
improve communication and cooperation?
    Admiral Winnefeld. I would certainly agree with General 
Odierno that the relationship is good. I think those of you who 
have been to Iraq have observed that personally. It has gotten 
better over the years.
    When I was operationally assigned in the North Arabian 
Gulf, I observed it personally within the Iraqi navy to include 
different sectarian people inside the same unit, cooperating 
together with each other, and also cooperating well with us, as 
we taught them how to protect their oil platforms.
    General Odierno has reflected recently on how the--both the 
withdrawal from the cities and the August bombing have 
tightened that bond between us. He will speak eloquently of the 
close cooperation we have with the Iraqi special operations 
forces and continually successes, daily and weekly successes in 
rolling up extremist elements that threaten the Iraqi 
government and Iraqi stability.
    So, you know, every now and then, there might be a little 
friction that you would expect to happen when such large forces 
are intermingled with each other, but the partnership is close, 
and it is instructive that that close partnership where we have 
been embedded with them for several years now has really paid 
off.
    So I think that we have never had a better partnership with 
them. They have confidence in us, in our--that we are going to 
stick to what we say we are doing and turning responsibility 
over to them.
    Mr. Wilson. And two months ago, I had the opportunity to 
see a joint operating center at Al-Nasiriyah and to see the 
Iraqis and Americans working together. And, Secretary, indeed, 
they are stopping the sectarian violence. It was so inspiring. 
And I was happy to see the special forces were using M249s made 
by FN Manufacturing of Columbia, South Carolina. So this is 
good.
    And, General Gainey, as a 31-year veteran of the Army 
National Guard and Reserve, I am really grateful that the Guard 
and Reserve have served with extraordinary distinction in Iraq 
and Afghanistan. What do you see the potential for their use, 
Advise and Assist? Also, will advanced equipment--does 
redeployment be sent back to armories within the United States?
    Additionally, I know unmanned aerial vehicles (UAVs) have 
been shifted from Iraq to Afghanistan. And I would hope, as we 
need reinforcements in Afghanistan, that more equipment would 
be sent to Afghanistan.
    General Gainey. Sir, the National Guard and Army Reserve 
and all forces Reserve have performed incredibly well. They are 
truly part of the total force. As far as their equipment, they 
will redeploy with their equipment that is there. Forty-six 
percent of the equipment that is over there, you know, is unit 
equipment and will redeploy with their forces.
    Of specific, National Guard has--of the total equipment 
there, only four percent of that is National Guard equipment. 
And for the Army Reserve, it is 16 percent. Most of the Marine 
Corps equipment is already redeployed.
    To your question on equipment that is being transferred, we 
have already redirected several units and equipment over to 
Afghanistan to include clearing equipment for roads, you know, 
the Huskies and cargo vehicles, automation equipment, 
communications equipment, et cetera. So as equipment is freed 
up and identified for use over in Afghanistan, that process 
happens all the time and is ongoing today.
    Mr. Wilson. And I want to thank you. And on behalf of 
military families, thank you very much.
    The Chairman. I thank the gentleman.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thanks to the four of you for being here today. I just want 
to follow up a little bit on the National Guard and Reserve 
issue, if we could just get a little bit more from you folks.
    But before I ask you to elaborate a little bit more, I just 
want to thank my colleagues here who have a particular 
concern--we all do, but certainly Mr. Wilson does, and he has a 
personal connection to the National Guard, but also, Mr. 
Taylor, with what has happened on the Gulf Coast with the 
hurricanes and what have you, and, of course, in Iowa, when we 
had the great flood last year, we were able to utilize our 
National Guard for those emergency services, obviously, prior 
to, during, and after that flood.
    And so we can see the National Guard engaged in those 
domestic kinds of operations, as well as going overseas. I am 
really proud of the Iowa National Guard. Next fall, we are 
going to be deploying somewhere between 3,500 and 3,900 
National Guard to Afghanistan. That was just made public today, 
I believe.
    But I do have a real concern, obviously, on the equipment 
front. I appreciate the answers that you gave so far today, but 
I want to give you an opportunity, Madam Secretary and General 
Gainey, to elaborate a little bit more, if you would, about 
bringing the materiel from the theater and back here to the 
United States, because, again, we have to make certain, I 
think, that we continue to equip our National Guard, not just 
for combat missions when called upon to do so, but also for 
those domestic missions that they perform here.
    So spend a little time elaborating, if you would, on your 
testimony, Madam Secretary, and General Gainey, please.
    Secretary Flournoy. Actually, I would like to defer to the 
general, as she is really working the details of this.
    Admiral Winnefeld. But before the general speaks, may I put 
in a plug?
    Mr. Loebsack. Please.
    Admiral Winnefeld. And I would simply say that, during our 
testimony in July, we heard your message loud and clear, both 
from you and Mr. Taylor and others, that you were very 
interested in the National Guard and also the civilian capacity 
piece.
    And believe me: It was a real challenge for us to get 
through the Internet technology systems and the like. And my 
hat is off to General Gainey and her folks for really working 
hard. And we still got a ways to go on this, but we have heard 
you loud and clear, and we are determined to take your concerns 
into account.
    And I will turn it over to----
    Mr. Loebsack. I appreciate that very much.
    General.
    General Gainey. Yes, sir. Sir, all of the services are 
working very hard to continually review the requirements for 
our National Guard and Reserve units to look at what are their 
shortfalls and to identify if there is any equipment that is 
currently in Iraq that could be used to fill their shortages.
    As well, the services all look at that which is coming back 
through the refurbishment system of the depots to then fill the 
shortages where they had been directed to leave equipment in 
theater. They may not get back the exact same truck or Mine 
Resistant Ambush Protected (MRAP) vehicle or tank that they 
left in theater, but they will get one of those out of depot.
    Those pieces of equipment are identified for transfer back 
to the Reserve components to meet the requirements of their 
missions and our daily requirements.
    Mr. Loebsack. I appreciate that, because on page five of 
your testimony, Madam Secretary, you said, in fact, Reserve 
units serving in Iraq are being offered the opportunity to take 
theater-provided equipment back to their home station to fill 
any authorized shortages.
    And what you are saying, General Gainey, is that those who 
previously were deployed to Iraq are also able, then, to 
replenish their sources, their equipment?
    General Gainey. For that equipment that they had previously 
had to leave in theater, that is being filled more from stocks 
that are coming out of United States depot refurbishment 
facilities so that they can, you know, make best use of it 
immediately.
    Mr. Loebsack. Okay.
    Okay. Thank you very much.
    Thank you, Mr. Chair. I will yield back the balance of my 
time. Thank you all.
    The Chairman. Thank you.
    General, let me ask. It is maybe a bit repetitious. Would 
you tell us again, in your opinion, how the American National 
Guard has performed in Iraq?
    General Gainey. Certainly, sir. Sir, I had served over 
there as the director of resources and sustainment for Multi-
National Force-Iraq, so I have personally seen the great work 
that the National Guard and all of our Reserve units have 
performed.
    As well, I have seen them perform in previous conflicts, as 
well, serving alongside them, particularly in Desert Storm.
    When you look at the total force, and you are forward-
deployed, and you are expecting support on your left and right, 
you are not looking to see what unit they came from. You are 
looking to see that you have got a competent leader on your 
side and a subordinate that knows their job and is trained to 
standard. And that is what we have in our Reserve forces.
    The Chairman. You would say that about the National Guard?
    General Gainey. I would, indeed, sir.
    The Chairman. Now, when we talk to our National Guard units 
back home, what message can I tell them about redeploying the 
equipment back to them, resetting the equipment back to them?
    General Gainey. Sir, you can tell them that the equipment 
is coming back, will be put through the refurbishment program. 
That equipment then will be balanced with the requirements for 
the forces that have to go back out to the fight. The services 
look at that and generate that equipment back out of the depots 
to the units that are the next to deploying.
    That may be a National Guard unit. That may be a Reserve 
unit. That may be an active unit. Those are the units that will 
be filled first with the equipment coming out of depots so that 
those units can train on that equipment prior to going back 
into the fight.
    As more and more equipment comes out of the depot, 
shortages will be filled in units that are still back in the 
United States that don't currently have a deployment mission 
immediately on the horizon.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I was in Iraq during the Memorial Day recess, and so prior 
to the June 30th pullout, and met with General Odierno and 
Ambassador Hill in Baghdad. And one of the questions that I 
raised at that time was that Mosul, the second-largest city in 
Iraq, at I think a population of about 2.0 million, that was 
still had tremendous security concerns, that still was under Al 
Qaeda influence in a significant way, and I posed to 
Ambassador--I mean, Ambassador Hill or General Odierno, would 
they, in fact, ask for an extension of the June 30th deadline?
    And at that point, they told me, no, because they felt that 
the political considerations would outweigh the tactical 
considerations. And I, in fact, agree with them. Can you give 
me an assessment of Mosul at this point in time?
    Secretary Flournoy. Mosul remains an area where we are 
still--where, you know, some of the insurgent elements are 
trying to kind of make a last stand, if you will, in terms of 
urban areas. So it remains an area of focus in the campaign.
    That said, I think there has been substantial improvement 
since the period when you were there. I think you have 
increasingly effective Iraqi forces in the city. You have U.S. 
forces, when invited in, backing them up, providing support, 
doing joint operations with them, and so forth. So we have made 
progress.
    I think, again, most importantly, I would underscore the 
political evolution in the area. You have a population that is 
really in the process of turning against the more extremist 
elements and opting into the political process at the local 
level, the provincial level, and now in January with the--at 
the national level.
    I don't know if you have anything to add to that, but it is 
still an area that we are keeping a close eye on. We are 
working it hard, but it is, you know, moving in the right 
direction.
    Mr. Coffman. In terms of redeployment, as far as equipment 
goes, can you give me a categorical definition as to what we 
are giving the Iraqis versus selling the Iraqis?
    Secretary Flournoy. I would defer that to my colleagues.
    General Gainey. Sir, I can't give you a specific item, but 
I can tell you that the type of equipment that would be 
identified transfer might range from non-standard equipment, 
like generators or tents, to equipment that is that they are 
purchasing that is an end-item weapon system.
    They may also be purchasing some of the items where we may 
be using Iraqi Security Forces Funds (ISFF) to support them for 
repair or for training, also for possible repair parts.
    The types of equipment that we have identified for transfer 
that we are looking at today ranges everything from, again, 
tentage to perhaps the wheeled vehicles, ASVs, you know, 
armored security vehicles, Humvees. That is the sort of thing 
that, if it is excess, that is going to go ahead and be 
transferred. But most of the newer weapon systems would have to 
be purchased, that which could be an exportable version.
    Mr. Coffman. We are required by the SOFA agreement to have 
our forces out of Iraq by, I think, December 31, 2011. Will we 
have all of our equipment out of Iraq by December 31, 2011?
    Secretary Flournoy. I will let you answer that, General.
    General Gainey. We have a process by which we are going to 
be bringing that equipment out and staging it in various 
locations. So we believe that we will be able to meet that 
requirement. There may be some items that might be in DRMO that 
we are still processing through that would not have totally 
departed the location. Does that answer the question, sir?
    Mr. Coffman. It does.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    The gentlelady, Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. And thank you all for being 
here today.
    I have had concerns about the rest time for servicemembers, 
some who have experienced three and four tours, and we know the 
impact on readiness and also the impact on our troops and their 
families. We know about the PTSD, the divorce rates, the 
increasing suicide rates, et cetera.
    After the election, I know that we plan to redeploy 6,000 
to 8,000 troops. Will there now be an opportunity to provide 
these troops more dwell time at home?
    Admiral Winnefeld. I don't have the exact numbers for you, 
but the answer is yes. And the Army is very, very focused on 
trying to get the boots on the ground versus the dwell time up 
to an acceptable number.
    And General Casey, of course, I believe would like to see a 
three-to-one ratio. It is going to be a long time before we can 
get there. The current goal is to get it to two-to-one.
    But, clearly, if the aggregate number of forces that are 
deployed outside the continental United States comes down, as 
it will significantly, then we should start to be able to build 
that dwell time back up, and we already are.
    Ms. Shea-Porter. So you could tell a soldier and his or her 
family today that, if all goes according to plan, they can 
expect to have their loved one home more often between 
deployments? Is that something that----
    Admiral Winnefeld. A gradually increasing amount of time 
between home--between deployments will occur if all goes well, 
yes, ma'am.
    Secretary Flournoy. In addition to the force management 
piece, something that has helped in this regard has been the 
authorization to grow the force over the last couple of years 
and then the temporary authorization for additional 22,000 for 
the Army. All of that is designed to help reduce some of the 
pressure.
    Ms. Shea-Porter. Right. But I am also wondering, do you 
have any idea of how many numbers of men and women will then be 
sent to Afghanistan? Or is there a guarantee that there will be 
some time back in the states? Are you able to do that?
    Secretary Flournoy. The decision on the force disposition 
in Afghanistan has yet to be made. The President is working 
through that. But I can tell you that, in the discussions, 
there is a very explicit addressal of the impacts of any 
options that we are considering on dwell time for men and women 
in uniform.
    Ms. Shea-Porter. Okay, thank you.
    I also would like to ask about increasing numbers, the 
redeployment efforts. Will it cause contractors to stay longer? 
And will there be more of them? I know that we have had a 
decrease this year, but the GAO mentioned that they are 
expecting that we will actually have to increase or leave more 
contractors there to do the work as the troops leave. Is that 
what you are expecting, also?
    Mr. Estevez. The contractor number will continue to 
decrease. It will not decrease as rapidly as the force 
decrease. So, for a while, we were about a one-to-one ratio, 
maybe a little higher. By next July, we expect--or August, we 
expect to be about 1-to-1.5, so about 75,000 contractors to 
help us close those FOBs and help us redeploy equipment. And 
then that will also start to come down.
    So there is flexibility in that, but there will be a little 
higher number of a ratio of contractors, thought it will be an 
overall decrease in the number of contractors in Iraq.
    Ms. Shea-Porter. All right. And a question about the 
contractors. Who is going to be left behind providing 
accountability and oversight?
    Mr. Estevez. Joint Contracting Command Iraq/Afghanistan 
will still be in place. We are deploying additional contracting 
officers as we speak, in fact, to help us manage that. And they 
will have flexibility between Afghanistan and Iraq, with the 
number of contracting officers.
    In addition, we have required any units that are there now 
to have trained contracting officers, representatives to 
oversee our contracts. You know, there is a regimen, is that we 
put in place based on lessons learned.
    Ms. Shea-Porter. Okay, thank you.
    And one last question. I understand that Iraq is interested 
in purchasing some pretty sophisticated equipment, tanks, F-
16s. Are you concerned about the long-term stability of Iraq 
after the election? Are you comfortable with leaving in some 
advanced military equipment?
    Secretary Flournoy. Again, I think that that will certainly 
be factored into any decision on major weapons sales going 
forward. But I think that we are on--given the path that we are 
on, we are on the path to having Iraq as a stable ally of the 
United States in the region.
    Should indicators change that we are on a different path, 
that would obviously have to be factored into our decision-
making on weapons sales.
    Ms. Shea-Porter. If I had time, I would ask you to define 
stability for Iraq, given that they have other issues within, 
but thank you. And I yield back.
    The Chairman. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I thank each of the witnesses for your testimony and 
certainly your service to our Nation. I apologize if my 
question is repetitive and was addressed before my arrival, but 
I do want to follow on with Mr. Coffman's focus on the status 
of forces agreement. And specifically, my understanding is the 
plan now is that we will have roughly 100,000 troops through 
the election early next year and then to begin drawing down to 
roughly 50,000 by August of next year.
    The other vote that I guess still is pending or proposed is 
a vote on the status of forces agreement, that there be a 
referendum, and that if that was rejected, that we could 
perhaps have to withdraw all personnel and equipment within one 
year. So my, I guess, two-part question is, what is the status 
of that proposed referendum vote, as best we know it? And given 
the logistical challenge of just going from 100,000 to 50,000, 
if we were required to withdraw completely in a year of it 
being voted and denied, are we planning for that very 
challenging scenario?
    Secretary Flournoy. Our understanding is--and this has been 
confirmed by a number of Iraqis--is that Iraqi politicians have 
pretty much put aside for the time being any plans to push for 
the referendum on the security agreement. So that is very good 
news.
    Should the referendum be held, though, and if U.S. forces 
were requested to leave before the end of 2011, they would 
have--still have a year to complete the drawdown from the date 
of notification by the government of Iraq.
    But, again, you know, obviously, we would have to deal with 
that contingency, should it arise. Given the politics of the 
situation, we think that is an increasingly remote possibility, 
especially because we have worked so hard to be totally 
compliant with the terms of the agreement to date. And I think 
the Iraqi government is very satisfied that we are completely 
committed to implementing the agreement in full.
    Mr. Platts. I would agree that it is good news if they are 
not going forward with that.
    And maybe a quick follow-on then is, is there more 
definitive insights on the date of the election itself? Or is 
that still a work in progress with the council?
    Secretary Flournoy. The constitution requires that the 
election be held by the end of January. The Council of 
Representatives has not yet passed a law, either a new 
elections law or a vote to use the old elections law and set a 
date. Again, we are pushing very hard for that so that the 
commission has--the elections commission has time to actually 
do the logistics necessary.
    So we continue to push for a January date. That is still 
very much in the cards. I think if several weeks from now we 
are--have not made progress, then we will have to do some re-
examining of our plans.
    Mr. Platts. Our planning for the withdrawal, once that 
election occurs, to get down to the 50,000 by August, is that 
assuming 2, 3, 4 months of 100,000 level after the election 
because of----
    Secretary Flournoy. General--yes----
    Mr. Platts [continuing]. The past elections?
    Secretary Flournoy. General Odierno has asked for sort of a 
buffer before and after the election to keep our forces levels 
relatively stable during that time so that we can adequately 
secure the process and then actually ensure a stable 
environment for the seating of--you know, for the 
implementation of the election results, if you will.
    Mr. Platts. And our--the logistical planning is based on 
that assumption?
    Secretary Flournoy. Yes. Yes.
    Mr. Platts. Good.
    Thank you, Mr. Chairman.
    And, again, thanks to each of the witnesses.
    The Chairman. Thank you very much.
    Mr. Courtney, wrap it up.
    Mr. Courtney. Actually, I was just going to follow up with 
what Mr. Platts was just inquiring. I mean, the last time there 
was a national election, it was a pretty excruciating, long, 
drawn-out process of forming the Maliki government. And since 
so much of this time--or the drawdown sort of hinges on the 
election process, I mean, if we go through that again, where it 
is, you know, four months, six months before they finally get 
their act together in terms of forming a government, I mean, 
you know, is that going to bump back the drawdown?
    Admiral Winnefeld. It is a really good question. General 
Odierno, as Ms. Flournoy mentioned, is looking for 60 days or 
so after the election. And the choice of that number is not 
based on the complete formation of the government. And, in 
fact, we are sort of expecting that that government will take 
until potentially June to form.
    His desire for the 60 days is principally based on his 
assessment that, if there is going to be post-election 
violence, if the election is contested, that that violence 
would occur in the first 60 days. It would be very clear to us 
within the first 60 days if that were going to happen. He calls 
that the most dangerous time after the election.
    And once it appears that that is not going to happen--and, 
of course, that is what we hope for--then it will take the 
natural time to form the government, but he does not expect 
that there would be violence that would prevent him from 
recommencing, if you will, the drawdown to support it.
    Mr. Courtney. And when he was here last time, I mean, I 
sort of asked the question about the interaction between, you 
know, DOD and State as far as working together the way Crocker 
and Petraeus did. And I guess, you know, I mean, obviously, the 
political part of this is so critical to our military 
operations.
    I mean, I assume that that is still sort of a strong 
relationship and people are trying to, again, maximize that 
transition.
    Secretary Flournoy. Yes. I think Ambassador Hill and 
General Odierno have been working very closely together. In 
fact, the drawdown planning--there is a whole civilian side to 
this. I mean, there--it is actually--they have developed a 
joint campaign plan for the coming period. And we are actively 
working a number of transition issues between DOD and State, in 
terms of handing off responsibilities, making sure that our 
military repositioning plans are absolutely in sync with the 
eventual footprint for the State Department, in terms of 
embassy consulates, teams, deployable teams, and so forth, so 
that is done absolutely hand in glove.
    And so I think that is something they are working daily. 
And, again, as we get a little more clarity on the details of 
that, we will be coming back to you to walk you through those 
plans.
    Mr. Courtney. I yield back.
    The Chairman. I thank the gentleman.
    You may not have this information with you, but I am sure 
there is a list of functions that will be transferred from the 
United States military to the State Department and to other 
agencies. And I would ask if, Madam Under Secretary, if that 
information could be transmitted to us within a reasonable 
time.
    I know it might take some time to gather it all together, 
but I know that is coming. And it would be very helpful to our 
committee to see that information within a reasonable time.
    Secretary Flournoy. Sir, we are developing that as part 
of--as sort of the conceptual basis for our fiscal year 2011 
budget requests across the government on Iraq with regard to 
Iraq. And so in that sort of timeframe of developing that, we 
will get it to you as soon as we have a whole-of-government 
approach.
    The Chairman. That would be very helpful.
    I think we on our committee wish to express our great 
appreciation to the young men and young women who serve with 
you and under you in Iraq, as well as in Afghanistan and 
elsewhere. They are truly our national treasures, and it 
appears that the work and the efforts and the challenges that 
have been met in Iraq deserve a sincere compliment from us to 
them. So we wish them continued success putting America in the 
position of redeploying, a very difficult challenge that we 
have faced through the years.
    So with that, we thank you for your testimony. We thank you 
for being with us.
    And, General, thank you for your maiden voyage to our 
committee. We will welcome you back again.
    Mr. Estevez, Madam Under Secretary, it is always a pleasure 
to have you.
    Secretary Flournoy. Thank you very much, sir.
    The Chairman. And, Admiral, thank you so much.
    The meeting is adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            October 21, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 21, 2009

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 21, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. We understand that the bulk of the equipment being 
considered for transfer to the Iraqi Security Forces is Army equipment. 
What plans, if any, have been made to reimburse or recoup the Army for 
these losses? What effect will this have on Army readiness?
    Secretary Flournoy. OSD and the Joint Staff are working with Multi-
National Force-Iraq and the Military Departments to finalize the 
initial list of equipment to be transferred to the Iraqi Security 
Forces. Although the list at this time is not final, it includes 
equipment from the Army, Air Force, and Marine Corps. Each of the 
Military Departments is first, identifying any excess equipment, and 
second working closely with the DoD Comptroller to identify equipment 
proposed for transfer that is not excess to the Military Departments 
and for which reimbursement will be requested. The DoD Comptroller, 
working with the Office of Management and Budget, will determine the 
timing and submission of the reimbursement request to Congress. The 
Joint Staff has worked with each of the Military Departments and U.S. 
Central Command to ensure that as much equipment as possible will be 
transferred without impacting military readiness.
    The Chairman. How does the Foreign Military Sales program figure 
into the equation of providing equipment to the Iraqi Security Forces? 
Why are additional authorities being sought to do this?
    Secretary Flournoy. The Foreign Military Sales (FMS) program, and 
programs available under other authorities, will be used to provide 
defense equipment and services to the Iraqi Security Forces (ISF). The 
FMS program provides an important mechanism for the transfer to Iraq of 
major end-items, such as M1A1 Abrams tanks and C-130J aircraft. We will 
also be relying on other authorities, including those permitting the 
transfer of excess and non-excess defense articles under Section 516 of 
the Foreign Assistance Act and Section 1234 of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010 to help the ISF develop 
the capacity to provide internal security and a foundation for external 
defense by the end of December 2011.
    The authority the Department recently requested to transfer non-
excess equipment to the ISF was provided in Section 1234 of the NDAA 
for FY10. We are not seeking any additional authorities at this time.

                                  <all>

</pre></body></html>
